Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 THE NEW YORK STATE MANUFACTURER
   REBATE PROGRAM SIGNIFICANTLY
    REDUCED MEDICAID COSTS FOR
  HOME BLOOD-GLUCOSE TEST STRIPS
        BUT COULD ACHIEVE
      ADDITIONAL REDUCTIONS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        July 2013
                                                      A-02-11-01042
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New York State, the Department of
Health (Health Department) administers the Medicaid program.

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strips (test strips) that physicians prescribe for diabetics. The amount
allowed for payment of test strips is generally equal to the lesser of the Medicare fee schedule
amount or the amount charged by a supplier.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
mandated the establishment of a Medicare competitive acquisition program (competitive bidding)
under which prices for selected medical supplies, including mail-order test strips, sold in specified
competitive bidding areas (CBAs) would be determined by suppliers’ bids rather than a fee schedule.
The program was operational in nine metropolitan areas as of January 1, 2011.

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR
sections 431.51(d) and 431.54(d), the Medicaid agency may establish special procedures for the
purchase of medical devices through a competitive bidding process or otherwise, if the State assures
and CMS finds that adequate services or devices are available to recipients under the special
procedures.

Title 18, section 505.5, of the New York Compilation of Code, Rules, & Regulations authorizes
eligible providers in New York State to bill for medical supplies, including test strips. The
Health Department reimburses providers the lesser of the usual and customary charge or the
Medicaid fee schedule amount for each item.

Pursuant to chapter 497, part F, section 1, of the 2008 Laws of New York, the Health
Department was required to implement a preferred diabetic supply program. The Health
Department obtained approval from CMS to implement a preferred diabetic supply program,
effective October 1, 2009, under the exemptions permitted in section 1915(a)(1)(B) of the Act
and requirements established in 42 CFR sections 431.51(d) and 431.54(d). The program was
structured to obtain enhanced rebates from preferred test strip manufacturers and reduce
Medicaid program expenditures.

During the period October 1, 2009, through September 30, 2010, the Health Department made
Medicaid payments totaling $33,074,021 for test strips.




                                                 i
OBJECTIVE

Our objective was to determine whether the Health Department could achieve Medicaid program
savings for test strips.

SUMMARY OF FINDINGS

The Health Department achieved savings of approximately 51 percent for the New York State
Medicaid program by obtaining manufacturer rebates through its preferred diabetic supply
program. However, the Health Department could have achieved additional savings of
approximately $5.9 million by establishing a competitive bidding program for test strips similar
to the Medicare program.

We determined that the Medicare reimbursement rates for mail-order test strips obtained through
competitive bids in the nine CBAs were lower than the Health Department’s average Medicaid
reimbursement rate after manufacturer rebates. Specifically, the highest Medicare CBA payment
rate for a 50-unit package of test strips in calendar year 2011 was $15.62, whereas New York
State’s net average Medicaid reimbursement rate for a 50-unit package of test strips provided
during the period October 1, 2009, through September 30, 2010, was $24.54. Establishing a
competitive bidding mail-order program similar to the Medicare program could have resulted in
a 36-percent reduction in the price of test strips paid under the New York State Medicaid
program.

RECOMMENDATION

We recommend that the Health Department establish a competitive bidding program similar to
Medicare for the purchase of test strips, which could have resulted in additional savings to the
New York State Medicaid program of $5.9 million during the period October 1, 2009, to
September 30, 2010.

HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the Health Department generally concurred with our
recommendation. Specifically, the Health Department stated that after our audit period, it
competitively selected three preferred vendors to supply test strips to Medicaid beneficiaries,
resulting in additional savings to the Medicaid program. The Health Department also indicated
that it would continue to explore additional opportunities for savings to the Medicaid program.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicaid Program ..........................................................................................1
              Federal and State Requirements.....................................................................1
              New York State’s Preferred Diabetic Supply Program .................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          COST SAVINGS ACHIEVED BY NEW YORK STATE’S
           PREFERRED DIABETIC SUPPLY PROGRAM..................................................4

          MEDICARE COMPETITIVE BIDDING PROGRAM ............................................4

          ADDITIONAL SAVINGS FOR THE NEW YORK STATE
           MEDICAID PROGRAM ........................................................................................5

          RECOMMENDATION .............................................................................................5

          HEALTH DEPARTMENT COMMENTS ................................................................6

APPENDIX

          HEALTH DEPARTMENT COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New York State, the Department of Health (Health Department) administers the Medicaid
program. The Health Department uses the Medicaid Management Information System (MMIS),
a computerized payment and information reporting system, to process and pay Medicaid claims.

Federal and State Requirements

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strips (test strips) that physicians prescribe for diabetics. The amount
allowed for payment of test strips is generally equal to the lesser of the Medicare fee schedule
amount or the amount charged by a supplier.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
mandated the establishment of a Medicare competitive bidding program (competitive bidding) under
which prices for selected medical supplies, including mail-order test strips, sold in specified
competitive bidding areas (CBAs) would be determined by suppliers’ bids rather than a fee schedule.
The program was operational in nine metropolitan areas as of January 1, 2011. 1

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR
sections 431.51(d) and 431.54(d), the Medicaid agency may establish special procedures for the
purchase of medical devices through a competitive bidding process or otherwise, if the State assures
and CMS finds that adequate services or devices are available to recipients under the special
procedures.

Title 18, section 505.5, of the New York Compilation of Code, Rules, & Regulations authorizes
eligible providers in New York State to bill for medical supplies, including test strips. The
Health Department reimburses providers the lesser of the usual and customary charge or the
Medicaid fee schedule amount for each item.




1
    New York State is not currently one of the nine competitive bidding areas.


                                                           1
New York State’s Preferred Diabetic Supply Program

Pursuant to chapter 497, part F, section 1, of the 2008 Laws of New York, the Health
Department was required to implement a preferred diabetic supply program. The Health
Department obtained approval from CMS to implement a preferred diabetic supply program,
effective October 1, 2009, under the exemptions permitted in section 1915(a)(1)(B) of the Act
and requirements established in 42 CFR sections 431.51(d) and 431.54(d). The program was
structured to obtain enhanced rebates from preferred test strip manufacturers and reduce
Medicaid program expenditures.

The Health Department contracted with Magellan Medicaid Administration, Inc. (Magellan), to
use Magellan’s competitively bid Medicaid pharmacy benefit management services contract.
Magellan solicited, received, and evaluated bids for manufacturer rebates on diabetic supplies.
The Health Department selected the products that it would include in its preferred diabetic
supply program based on quality standards and cost. The Health Department selected all
glucometer and test strip manufacturers that participated in rebate agreements with Magellan.

During the period October 1, 2009, through September 30, 2010, the Health Department made
Medicaid payments totaling $33,074,021 for test strips.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Health Department could achieve Medicaid program
savings for test strips.

Scope

Our audit covered Medicaid payments totaling $33,074,021 for 667,215 50-unit packages of test
strips supplied to beneficiaries during the period October 1, 2009, through September 30, 2010.
We limited our review to claims billed with a National Drug Code and where the quantity
dispensed was in 50-unit increments.

We did not review the overall internal control structure of the Health Department. Rather, we
limited our internal control review to obtaining an understanding of the Health Department’s test
strips reimbursement policies and how manufacturer rebates were determined.

We performed fieldwork from November 2011 through March 2012.

Methodology

To accomplish our audit objective, we:

   •    reviewed applicable Federal and State laws and regulations;




                                                2
      •    obtained an understanding of New York State’s preferred diabetic supply program,
           including how test strips were reimbursed and manufacturer rebates for test strips were
           determined;

      •    ran computer programming applications at the MMIS fiscal agent 2 that identified 364,799
           claims for 667,215 50-unit packages of test strips totaling $33.1 million during the period
           October 1, 2009, through September 30, 2010;

      •    determined the amount of manufacturer rebates received by the Health Department for
           test strips supplied to beneficiaries during the period October 1, 2009, through
           September 30, 2010;

      •    determined the approximate amount that the Health Department saved the New York
           State Medicaid program for test strips through its preferred diabetic supply program;

      •    identified the Medicare payment rates for test strips in the nine CBAs; and

      •    determined the approximate amount of additional savings the Health Department could
           have achieved if it implemented a competitive bidding program by comparing the amount
           that the Health Department reimbursed providers less the amount of rebates received with
           the highest Medicare CBA test strip payment rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATION

The Health Department achieved savings of approximately 51 percent for the New York State
Medicaid program by obtaining manufacturer rebates through its preferred diabetic supply
program. However, the Health Department could have achieved additional savings of
approximately $5.9 million by establishing a competitive bidding program for test strips similar
to the Medicare program.

We determined that the Medicare reimbursement rates for mail-order test strips obtained through
competitive bids in the nine CBAs were lower than the Health Department’s average Medicaid
reimbursement rate after manufacturer rebates. Specifically, the highest Medicare CBA payment
rate for a 50-unit package of test strips in calendar year 2011 was $15.62, whereas New York
State’s net average Medicaid reimbursement rate for a 50-unit package of test strips provided
during the period October 1, 2009, through September 30, 2010, was $24.54. Establishing a
competitive bidding mail-order program similar to the Medicare program could have resulted in
a 36-percent reduction in the price of test strips.

2
    The Health Department contracted with Computer Sciences Corporation to be its MMIS fiscal agent.


                                                         3
COST SAVINGS ACHIEVED BY NEW YORK STATE’S
PREFERRED DIABETIC SUPPLY PROGRAM

The Health Department achieved savings of approximately 51 percent for the New York State
Medicaid program by obtaining manufacturer rebates for test strips through its preferred diabetic
supply program. Specifically, for the period October 1, 2009, through September 30, 2010, the
Health Department reimbursed providers $33.1 million for 667,215 50-unit test strip packages
and received manufacturer rebates of approximately $16.7 million. The manufacturer rebates
effectively reduced the net average cost of test strips from $49.57 per 50-unit package to $24.54,
a savings of $25.03 per package.

Table 1 details the cost savings the Health Department achieved through the use of manufacturer
rebates during the period October 1, 2009, through September 30, 2010.

               Table 1: Cost Savings Achieved Through Manufacturer Rebates

                                      New York State               New York State                 Cost
                                      Medicaid Before              Medicaid After               Savings
                                         Rebate                       Rebate                  (Difference)
             Total                       $33,074,021                  $16,371,599             $16,702,422
        Average per unit
      reimbursement rate
       (33,360,750 units)                      0.99                         0.49                     0.50
      Reimbursement rate
     (for 50-unit package)a                  49.57                         24.54                   25.03
 a
  Represents the average per unit reimbursement rate multiplied by 50 units. Differences are due to rounding the
 average per unit reimbursement rate.

MEDICARE COMPETITIVE BIDDING PROGRAM

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers test
strips that physicians prescribe for diabetics. The amount allowed for payment of test strips is
generally equal to the lesser of the Medicare fee schedule amount or the amount charged by a
supplier.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
mandated the establishment of a Medicare competitive bidding program under which prices for
selected medical supplies, including mail-order test strips, sold in specified CBAs would be
determined by suppliers’ bids rather than a fee schedule. The program set lower payment amounts
for medical supply items while ensuring continued access to quality items and services. The
intended result was to reduce beneficiary out-of-pocket expenses and create savings for taxpayers
and the Medicare program. As of January 1, 2011, the Medicare competitive bidding program was
operational in nine CBAs.




                                                       4
ADDITIONAL SAVINGS FOR THE NEW YORK STATE MEDICAID PROGRAM

The Health Department could have achieved additional savings for test strips by establishing a
competitive bidding program similar to the Medicare program. We determined that Medicare
prices obtained through competitive bids in the nine CBAs were lower than New York State’s
average per unit reimbursement rate less manufacturer rebates. Specifically, the highest
Medicare CBA payment rate for a 50-unit package of test strips in 2011 was $15.62, whereas
New York State’s net average Medicaid reimbursement rate for a 50-unit package of test strips
provided during the period October 1, 2009, through September 30, 2010, was $24.54, a savings
of $8.92 per package.

Based on our review of Medicaid payments for test strips, manufacturer rebates obtained by the
Health Department, and Medicare CBA payment rates, the Health Department may achieve
additional savings of approximately $5.9 million. Specifically, establishing a competitive
bidding program similar to the Medicare program could have resulted in a 36-percent reduction
in the cost of test strips paid under the New York State Medicaid program.

Table 2 details the additional cost savings that could be achieved through reducing New York
State’s average Medicaid reimbursement rate to amounts available under the Medicare CBA
program.

 Table 2: Additional Cost Savings Through Reduction in New York State Medicaid Rate

                                                               Highest                    Additional
                                  New York State            Medicare CBA                 Cost Savings
                                    Medicaid                Payment Rate                 (Difference)
       Reimbursement rate
      (for 50-unit package)             $24.54                   $15.62                      $8.92
        Average per unit
       reimbursement rate
            (50 units)                     0.49                     0.31                       0.18

             Totalb                  $16,371,599              $10,421,898                 $5,949,701
  b
    Represents the average per unit reimbursement rate multiplied by 33,360,750 units. Differences in the total
  calculations are due to rounding the per unit reimbursement rate.

RECOMMENDATION

We recommend that the Health Department establish a competitive bidding program similar to
Medicare for the purchase of test strips, which could have resulted in additional savings to the
New York State Medicaid program of $5.9 million during the period October 1, 2009, to
September 30, 2010.




                                                        5
HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the Health Department generally concurred with our
recommendation. Specifically, the Health Department stated that after our audit period, it
competitively selected three preferred vendors to supply test strips to Medicaid beneficiaries. By
using these vendors, the Department estimated that it saved the Medicaid program approximately
$12.6 million for calendar year 2012. Finally, the Health Department stated that it would
continue to explore additional opportunities for savings to the Medicaid program. The Health
Department’s comments are included in their entirety as the Appendix.




                                                6
APPENDIX
                                                                                                                        Page 1 of3


           APPENDIX: HEALTH DEPARTMENT COMMENTS 





================~r ~~~p~~~K 1~================= 

 N"av R. Shah, M.D., M P.H
 Comm·~s,ooe-r 	
                                        HEALTH 	                                                         Sue. Keily
                                                                                 Extfcutfv-e Oep:.tty Comm1s,s.ionQ'r




                                                              May21 , 20 13




Mr. James P. Ede11
Regional Inspector General for Audit Services
Department of Health and Human Services- Region II
Jacob Javitz Federal Building
26 Federal Plaza
New York, New York I 0278

                                                              Ref. No: A-02-ll-0 1042

Dear Mr. Edert:

       Enclosed are the New York State Department ofHcalth's comments on the U.S.
Department of Health and Human Services, Office of Inspector General 's Draft Audit Report
A-02-11-01 042 entitled, ''The New York State Manufacturer Rebate Program Significantly
Reduced Medicaid Costs for Home Blood-Glucose Test Strips But Could Achieve Additional
Reductions."

         Thank you for the opportuni ty to comment.

                                                              Sincerely,


                                                                ~·/&LY
                                                              Sue Kelly
                                                              Executive Deputy Commissioner

Enclos ure

cc: 	    Jason Helgerson
         James C. Cox
         Mike Nazarko
         Diane Christensen
         Stephen La Casse
         John Brooks
         Ronald Farrell



                                         HEALTH.NY.GOV
                                            l•<eooo•.ccm~ NYSDOH
                                         ....._+'!tOol' c:omiHe3ht'!NYGov
                                                                                                     Page 2 of3




             New York State Department of Health 

                        Comments on the 

           Department of Health and Human Services 

                   Office of Inspector General 

           Draft Audit Report A-02-11-01042 entitled, 

  The New York State Manufacturer Rebate Program Significantly 

  Reduced Medicaid Costs for Home Blood-Glucose Test Strips But 

             Could Achieve Additional Reductions 


The following are the New York State Department of Health's (Department) comments in
response to the Department of Health and Human Services, O ftlce of Inspector General (OIG)
Draft A udit Rt:port A-02- ll-01 042 entitl ed, "The New York State Manufacturer Rebate Program
Significant!y Reduced Medicaid Costs for Home Blood-Glucose Test Strips But Could Achieve
Additional Reductions."

Recommendation #1:

We recommend that the Health Department establish a competitive bidding program similar to
Medicare for the purchase of test strips, which could have resulted in additional savings to the
New York State Medicaid program of$5.9 million during the period October 1, 2009 to
September 30, 2010.

Response #1:

The New York State Department ofHealth currently administers a competitive bidding program
for diabetic test strips. After the period conducted during this audi t (from October 1, 2009 to
September 30, 20 10), the Department competiti vely selected three preferred vendors to supply
diabetic test strips to Medicaid members, resulting in additional savings to the State's Medicaid
program.

According to our analysis, the Medicare Pilot Program ("Program") makes the assumption that
New York's Medicaid program could select a mail order vendor fo r diabetic test strips at better
pricing while also allowing members to get prescriptions at certain participating retail locations
at greater cost to the member. Due to federal requirements, particularly the inability to initiate
any incentives such as no copays, coupons for free merchandise, etc., more aggressive vo lume
induced discounted pricing is difficu.lt to obtain. New York's Medicaid program actually had a
vo luntary mail order program fiom 1995 to 200 1. Tltis program was tern1inated due to very low
use, and the lack ofincentives was cited as the reason for the low use.

Notwithstanding the issue above related to attaining more aggressive discounted pricing, the
audit compared pricing data for the period October I , 2009 through September 30. 2010 to the
Medicare Pilot mail order pricing which began January I, 20 I J. T11e Department believes a
fairer comparison would have been to utilize data beginning in March 2011, two months after the
start ofthe Medicare pilot program, when the Depruttnent competiti vely selected three prefen·ed
                                                                                                     Page 3 of3




vendors to supply diabetic test strips to all members of YS Medicaid. TI1is significantly
increased savings to the program. For the 2012 calendar year the Department calculates that it
saved approximately S 12.6 million dollars through its competitive bidding program for diabetic
test strips.

Taking the Department's pricing and rebate data and applying it to the utilization ofdiabetic test
strips for the period April2011 to March 2012 would bring the differential savings between the
Medicare pilot program and l\'YS Medicaid trom the S5.9 million stated in the audit report to a
d ifferential of$830,000, thus demonstrating the Department's competitive bidding program
predominantly achieves the desired additional savings.

Moreover, the Department will continue to explore additional savings options to ensure that we
continually seck savings oppOttunities to the State's Medicaid program in future years.




                                                 2
